        Volume 2, Issue 1

            June 2001                                      United States Nuclear Regulatory Commission




                                       OIG FRAUD BULLETIN
      NUREG/BR 0272




                                       Government Travel Card
         Special points of in-         IT’S A TRAVEL CARD—NOT A CREDIT CARD!
                terest:
                                       What is the difference between a personal credit card and the govern-
        • Rules governing use of
                                       ment travel card?
          the Citibank Travel
          Charge Card
                                       A personal credit card account has to be earned and paid for. In order to
        • NRC Management Di-           obtain a personal credit card, individuals
          rective Governing Use        “earn” credit by showing the ability to pay
          of the Travel Card           from wages and other assets and an ac-
                                       ceptable credit history. Credit is “paid
        • Yellow Announcements         for” by annual fees, interest charges, and
        • Actual Cases Involving
                                       late fees. Credit is not “free.”
          Improper Use of Travel
          Credit Card                  The government travel card is given to
                                       employees—no application fee, no an-
                                       nual fee, no interest, no check on credit
                                       history-for the benefit of the government. It is used to save the govern-
                                       ment the expense of travel advances, and gives the employee added
INSIDE THIS ISSUE:
                                       convenience in performing official travel. The government bears the ex-
                                       pense of administering the program, eliminates the application process
Management Directive Gov-          2   for the individual employee, and provides the travel card company with a
erning Use of Travel Credit            large pool of customers.
Card
AmEx Rules for Using Travel        2
Credit Card
                                       This edition of the OIG Fraud Bulletin is dedicated to providing guidance
                                       in addition to that in the agreement each employee signs and that in the
Yellow Announcements               3   agency directives.
Actual Case Examples from       4-7
OIG Investigations Regarding           Why? Because misuse of the government travel card is misconduct
Improper Use of Travel Credit
Card
                                       which may be the subject of disciplinary action and because helping em-
                                       ployees avoid misconduct is an important part of the OIG mission.
Articles Regarding Plans of     7-8
another Agency for Misuse of           Guidance, applicable references, and case examples in this bulletin are
Travel Cards
                                       intended to educate and assist you in the proper use of the government
MSPB Cases Involving Misuse     8-9    travel card. If you have further questions, seek assistance before you
of the Travel Card
                                       use the card!
Information on Identity Theft      9
    PAGE 2                                                                              OIG FRAUD BULLETIN



Rules for Using the Travel Credit Card
The NRC initially contracted through the General Services Administration (GSA) with Diner’s Club for
a travel charge card. The contract was subsequently changed to American Express (AmEx) and
now to Citibank. However, over the years the rules governing the use of government travel charge
cards have remained essentially the same.

There have been many instances of misuse of the government travel card since the program’s incep-
tion on February 1, 1987. Although some NRC employees are under the impression that the travel
charge card can be used like a personal credit card, that is not the case. The contract between the
government and the credit card company establishes that government employees may use the
charge card strictly for official travel related expenses. The NRC Management Directive 14.1 explic-
itly outlines the rules for using the government credit card:

Management Directive 14.1 Part 5

5.4.1—Use

         “A card holder only may use his or her travel charge card for official travel, which includes—

∗    Obtaining authorized travel advances through automatic teller machines (ATMs)

∗    Paying for official travel expenses such as hotels, meals, and rental cars

∗    Obtaining common carrier tickets when a Travel Management Center
     (TMC) representative is not available or when the traveler has been
     specifically authorized to charge his or her ticket

The travel charge card should not be used for personal expenditures or anything else that would not
be reimbursable on the employee’s travel voucher.


         Use of the Government contractor-issued travel charge card for unauthorized travel
         advances or purchases that are not eligible for reimbursement on a travel voucher
         may result in disciplinary action up to and including removal.


When a government employee applies for a Citibank Travel Charge Card, he or she signs an agree-
ment with the company stating that the card will not be used for personal, family or household pur-
poses. That agreement mandates that:

(2) Use of Card

         Charging and cash access privileges (if allowed) on the Card and Account is provided
         by the Bank pursuant to the GSA contract and the task order of my Agency/
         Organization and is subject to this Agreement. I agree to use the Card only for official
         travel and official travel-related expenses away from my official station/duty station in
         accordance with my Agency/organization policy. I agree not to use the Card for per-
         sonal, family or household purposes.
    PAGE 3                                                                             OIG FRAUD BULLETIN


        I understand that the Card is not transferable and will be used by me alone only after
        I have signed the Card on the back above the words authorized signature.

Many Bank Card statement printouts have been analyzed by the NRC Travel Office and the Office
of the Inspector General (OIG). These statements indicated that items such as those listed below
have been improperly purchased with the government travel credit card:

∗   Engine repairs on personal vehicles
∗   Clothing
∗   Doctor bills
∗   Medical outpatient procedures
∗   Personal travel
∗   Gas, oil change, battery for personal vehicle
∗   Personal entertainment
∗   Meals when not in travel status

Yellow Announcements

There have been three NRC Yellow Announcements regarding the use of the Government travel
credit card published in the past 18 months in addition to an on-line Ethics Briefing provided to em-
ployees by the Office of the General Counsel.

Yellow Announcement No. 102, dated December 13, 1999, states under “NRC Property—
Employees can only use a Government credit card for official purposes and should not be delin-
quent in making payments for its use.”

Yellow Announcement No. 32 dated April 28, 2000 states in part… “Both the Federal Travel Regu-
lations (FTR) and NRC policy require that the Citibank VISA charge card only be used to pay for
items that are official travel related expenses. Generally, the Citibank VISA charge card may not
be used for personal, family, or household purposes. These expenses should be paid for by the
traveler through means other than the use of the Citibank VISA card. However, a non-reimbursable
expense may be charged to the Citibank VISA charge card if it is for a small dollar amount and a
reasonable effort to separate it from official travel related expenses has failed. “For instance, if a
traveler has rented a movie from the hotel where he is staying and the hotel can not separate that
charge from the bill, the employee may use the card to pay for the movie. However, the employee
must deduct the cost of the movie from his reimbursable travel expenses.”

Yellow Announcement No. 86, dated December 4, 2000, states under “NRC Credit Card and Other
Property—Employees can only use the Government credit card for official purposes and should not
be delinquent in making payments for use of the card.”

Beginning March of 2000, the Office of the General Counsel incorporated into its annual ethics
briefing guidelines on the appropriate use of the Citibank VISA charge card.

The following examples are cases at NRC that the OIG has investigated. As can be seen from
these cases, misuse of the government travel credit card by an NRC employee can result in disci-
plinary action up to removal from Federal service. In the following examples, details were changed
to protect the identity of the individuals involved. In addition to the NRC/OIG cases, we have incor-
porated into this bulletin two cases that have been adjudicated by the Merit Systems Protection
Board (MSPB) involving misuse of the government travel credit card.
   VOLUME 2, ISSUE 1                                                                           PAGE 4



AmEx Card Used for Medical Procedure

This OIG investigation was con-         change-of-station move or          As a result of this incident, the
ducted after the Office of the          other type travel which would      employee received a 14 day sus-
Controller                              explain the large amount.          pension without pay.
was con-                                The travel services branch
tacted by a                             notified AmEx and informed
representa-                             them the charge was not for
tive from                               official business. AmEx noti-
AmEx who                                fied the employee that he
was suspi-                              would have to pay the $4,000
cious about                             charge immediately. The bill
recent activity                         was paid in full later that
on an NRC                               same month.
AmEx account belonging to an
NRC employee. AmEx was con-
                                        The employee admitted to
cerned about a $4,000 charge for
                                        OIG that he knew personal
an elective vision correction pro-
                                        use of the government AmEx
cedure. It was determined by
                                        card was against agency
NRC Travel services that this
                                        regulations.
charge was not the result of a



Travel Card Used for Down Payment on New Home
This OIG investigation determined                                          that under the terms of the
that between March and Septem-                                             AmEx agreement with gov-
ber of 1997, as a result of a                                              ernment credit card hold-
change-of-station move, an NRC                                             ers, he was required to
employee charged over $22,000 to                                           make full payment of un-
the government AmEx credit card.                                           disputed amounts charged
Additionally, despite receiving reim-                                      to the AmEx card upon re-
bursement from NRC for expenses                                            ceipt of his monthly bill.
charged to the government credit                                           Likewise, the employee
card, the employee failed to make                                          was familiar with NRC pol-
timely payments to AmEx. AmEx                                              icy announcements relat-
suspended his government credit         payment on his change-of-          ing to an employees obli-
card account for insufficient pay-      station claim from NRC until af-   gation to promptly repay
ment at which time he owed over         ter it was approved, he had al-    AmEx for charges to his or
$13,000.                                ready received advances from       her account.
                                        NRC totaling over $25,000.
OIG further determined that in re-                                         As a result of this improper
sponse to an AmEx inquiry about         OIG found that instead of mak-     use of the government
the delinquent account, the em-         ing timely payments to AmEx,       credit card, the employee
ployee misled AmEx by stating that      the employee used his NRC          received a Letter of Repri-
he could not file a voucher for pay-    travel advances to cover ex-       mand.
ment from NRC until he completed        penses associated with the pur-
his change-of-station move. While       chase of a new home. Further,
the employee did not receive final      OIG found that he was aware
    PAGE 5                                                                               OIG FRAUD BULLETIN



 AmEx Card Used for Personal Purchases

The OIG reviewed the govern-          sonal airline tickets, jewelry, ties,   stated he also understood
ment AmEx account of an NRC           and numerous purchases at small         that personal use of the
employee. The AmEx records            food centers, and discount stores       government credit cards
revealed that the employee used       for groceries and general merchan-      was prohibited.
his AmEx card 73 times for ATM        dise totaling hundreds of dollars.
cash withdrawals. Of the 73, only
                                                                              Since the employee de-
23 withdrawals could be associ-
                                      The employee stated to OIG that         cided to resign from Fed-
ated with official travel. The OIG
                                                                              eral Service rather than
review disclosed that the remain-
                                                                              face possible administra-
ing 50 withdrawals, totaling over
                                                                              tive discipline, no action
$9,000 could not be associated
                                                                              was taken against him.
with official travel of the em-
ployee. Most of the cash with-
drawals were for $500.

AmEx records also showed that
the employee used his AmEx
card for personal purchases that
were not related to official NRC      he understood that government
travel. For example, he used his      travel cards were to be used only
card to purchase shoes, two per-      for government related travel. He



Employee Misuses Credit Card While on Official Travel

An OIG investigation revealed         The employee incurred a total
that an NRC employee misused          of over $1000 in prohibited non-
his government credit card while      travel related purchases on his
on official travel for purchases of   government Citibank Visa credit
alcoholic beverages, clothing,        card during a six month period.
sundries and toiletries.
                                      As a result of the misuse of the
The employee told OIG that he         government travel credit card,
formerly worked for private indus-    the employee was issued a Let-
try and thought that the govern-      ter of Reprimand.
ment credit card could be used
the same way it is used in indus-
try. He added that his corporate
credit card placed no restrictions
or prohibitions on the use of the
corporate issued travel credit
card.
   VOLUME 2, ISSUE 1                                                                            PAGE 6




Government Travel Card Used for Gambling

An OIG investigation was initi-      inconsistent explanations regarding
ated as a result of discovering      the confusion of personal credit cards
that an NRC employee had mis-        and the government AmEx card.
used the AmEx government
travel card. The employee im-        As a result of this misconduct,
properly used the AmEx card for      the employee was counseled
cash withdrawals totaling over       by his supervisor.
$1,300. Three of these with-
drawals were made at casinos
in Atlantic City, NJ.

When questioned by OIG inves-
tigators, the employee provided




Employee Uses Government AmEx Card for Car Repairs

A requirement of the General         cause her personal credit card was       As a result of the misuse of a
Services Administration (GSA)        almost at its maximum, she did not       government travel credit card,
contract is that AmEx is re-         use it. The employee further told        the employee was suspended
quired to notify the NRC if they     OIG that she used the AmEx card          for a period of seven calendar
detect what appears to be a          because it was convenient and that       days without pay.
personal charge on the govern-       she knew the balance of the credit
ment AmEx charge card. In this       card had to be paid within the
particular case, an NRC em-          month.
ployee used her AmEx card for
repairs on her vintage Thunder-
bird.

When the OIG asked the em-
ployee when she used her
credit card the last time for per-
sonal use, she replied that the
last time was when she had her
car repaired.

However, when OIG reviewed
                                     The employee told OIG that she
her AmEx account the investi-
                                     was aware she should not use the
gator discovered that the em-
                                     AmEx charge card for personal pur-
ployee had made additional pur-
                                     chases and she was wrong to do
chases after having her car re-
                                     so.
paired. The employee subse-
quently told OIG that she had a
personal VISA account but be-
    PAGE 7                                                                                OIG FRAUD BULLETIN



Employee Uses Travel Card for Food and Clothing

This investigation disclosed that an   mitted that she knew it was                              tially the
NRC employee made 32 personal          improper to use the charge                               sole
transactions on her government         card for personal transac-                               source of
AmEx charge card totaling almost       tions. The employee admit-                               income
$4,000. In addition to the improper    ted that she had been ex-                                for her
purchases, the employee was two        periencing financial difficul-                           family.
months delinquent in the amount of     ties and had used the card
approxi-                               only as a last resort to buy
mately                                 food and clothing for her                                As a re-
$1,500. OIG                            children.                                                sult of this
further deter-                                                                                  matter, a
mined that                                                                                      proposed
                                       The employee indicated that      five day suspension was im-
the employee
                                       she had financial difficulties   posed. However, after consid-
was aware
                                       because her husband was          ering her excellent work record
that her gov-
                                       frequently out of work and       and the circumstances sur-
ernment
                                       they had recently purchased      rounding the use of the credit
AmEx charge card obligation was
                                       a new town home and new          card, the agency decided to
past due and that the card was to
                                       furnishings. In addition,        hold the five day suspension for
be used only for official travel and
                                       fees associated with her         a period of one year providing
related expenses and was not to be
                                       monthly mortgage had been        there were no more instances of
used for personal purchases or
                                       reassessed which caused          credit card misuse. If there
transactions.
                                       an increase in her monthly       were no more instances of mis-
                                       expenses. The employee           use, the suspension would be
The employee acknowledged to           stated she used the govern-      mitigated to a Letter of Repri-
OIG that she was familiar with the     ment AmEx card specifically      mand which would be placed in
rules governing the proper use of      to augment her NRC in-           her personnel file.
the AmEx charge card, and she ad-      come since she was essen-


Actions Other Agencies Plan to Take
A recent article appeared in the Washington Post , “Federal Diary “ published on May 4, 2001, citing a
plan of action the Pentagon plans to take with employees who are late paying their government is-
sued-travel cards.

Beginning in the fall, the Pentagon will garnish the salaries of military and civilian personnel who are
running 120 days late in paying their government credit card bill. The Pentagon will also lower credit
limits and the amount of cash available through automated teller machines. The Director of Finance
outlined the department’s plans at a hearing called by Rep. Stephen Horn, (R-Calif.) chairman of the
House Government Efficiency Subcommittee, to examine the governments’ problems in managing the
SmartPay Travel Card program. Horn sponsored a 1998 law that requires agencies to issue govern-
ment travel cards to employees as a way to make federal travel more efficient and less costly.

Unfortunately, Horn said, “lagging agency oversight and employee misuse” have prevented the gov-
ernment from saving millions of dollars in travel costs.

One of the largest abuse problems appears to be at the Defense Department, where the Bank of
America holds the contract to provide travel cards. Clifford A. Skelton, manager of the bank’s Govern-
  PAGE 8                                                                                OIG FRAUD BULLETIN




Con’t.
ment Credit Card Services Division testified that 40,000 Defense military and civil service employees
have defaulted on more than $53 million in charges for “what is supposed to be official travel.” In the
SmartPay Program, Skelton said, “cash advances are twice as likely not to be paid back, when com-
pared to other credit charges, leading one to believe that misuse is routine, if not rampant.”

The General Services Administration provided Horn with data from March on 25 agencies that
showed $25 million of employee card charges are at least 60 days delinquent. Defense employees
were responsible for $17 million of those delinquent charges, GSA said.

In another article from Federal Computer Week dated May 3, 2001, it stated that by law, federal em-
ployees are to use government travel charge cards instead of personal credit cards to pay for travel
expenses. They are designed to make the travel process more efficient and less costly for the gov-
ernment. Usually, employees are responsible for paying the card charges after the government re-
imburses them. In some cases, employees are using the credit cards for personal expenses rather
than government travel, said Rep. Stephen Horn, chairman of the House Government Efficiency
Subcommittee. “In other cases, employees are defaulting on their payments costing the government
millions of dollars in potential revenue” in the form of rebates, Horn said in his written testimony.

The travel cards — as well as purchase and fleet cards — are issued by several banks under the
GSA SmartPay Program. Marty Wagner, associate administrator for the Office of Government wide
policy at GSA, defended the program and said delinquency rates are falling.


Adjucated MSPB Cases
In Kaye v. Defense Logistics Agency (DLA), 64 M.S.P.R. 570 (1994), the appellant petitioned for re-
view of the initial (November 12, 1993) decision that sustained her removal for the following charges:
failure to safeguard government credit card and personal identification number; failure to follow spe-
cific instructions for reporting loss, theft, or compromise of the government credit card; misuse of
government credit card (improper charges); and providing false information in an agency investiga-
tion. The Merit Systems Protection Board (MSPB) reversed the initial decision, and the penalty was
mitigated to a 45-day suspension. The Board considered the charges serious but took into account
the failure to sustain all of the charges; the appellant’s excellent, unblemished record; and taking full
responsibility to repay improper charges; (over $2,000 in cash withdrawals). The suspension of 45
days rather than removal was considered the maximum reasonable penalty for the charges against
the appellant which included all of the above charges with the exception of the charge of “providing
false information in an agency investigation.” The appellant in this case was a GS-12 Supervisory
General Supply Specialist.

In Baracker v. Department of the Interior, 70 M.S.P.R. 594 (1996), the appellant, a Senior Executive
Service employee, was suspended for 15 days for misuse of the government credit card. In this de-
cision, the Board held that the agency was not required to prove intent in order to sustain a charge
against the employee of misuse of the government credit card. The Board sustained the 15-day sus-
pension. The Board found that the employee did not dispute the administrative judge’s findings that
the employee used the government travel card to take trips for his personal convenience and not for
official government business, and that those instances constituted misuse of the government travel
    Volume 2, Issue 1                                                                       Page 9




card. The employee argued that the agency may discipline him only if he intentionally misused the
card, and since he did not have this intent, the Board should disapprove the adverse action the
agency took against him. The Board rejected his argument holding, first, that the agency need not
prove intent and, second, that the agency, in this case, had proven intent. It had provided him with
rules for the card’s use and the employee had signed a document approximately six weeks before the
first instance of misuse indicating that he had received, read, and understood the agency’s memoran-
dum regarding official card use.

Some Information That May Help You

Identity Theft
Sometimes an ID thief can strike even when you've been very careful. One of the best ways to catch
identity theft is to regularly check your credit record. Order your credit report from each of the three
major credit bureaus each year and make sure all the information is correct. Also, follow up with
creditors if your bills do not arrive on time. A missing credit card bill could mean an identity thief has
taken over your credit card account and changed your billing address to cover his tracks. If you know
for a fact that your credit card, drivers license, or social security card/number was stolen, the first
thing to do is cancel all your credit card accounts and then notify the three national credit reporting or-
ganizations and immediately place a fraud alert on your name and social security number. This alert
means any company that checks your credit knows your information was stolen and they have to con-
tact you by phone to authorize new credit. The numbers are Equifax 1-800-525-6285; Experian 1-
800-301-7195; and Trans Union 1-800-680-7289. The Social Security Administration also has a fraud
line at 1-800-269-0271.

An excellent web site for consumer education is www.consumer.gov/. Click on ID Theft for a wealth
of information on how you can protect yourself from one of the fastest growing crimes in America.
The Federal Trade Commission publishes a free brochure on Shopping by Phone or Mail. For a com-
plete list of publications, write for Best Sellers, Consumer Response Center, Federal Trade Commis-
sion, Washington, DC 20580; or call toll-free, 1-877-FTC-HELP (382-4357), TDD (202) 326-2502.




                                     Office of the Inspector
                                             General

                                                           United States Nuclear Regulatory Commission

                                                           Mail Stop T 5D-28
                                                           USNRC
                                                           Washington, DC 20555
 You will soon be
able to access the
        OIG
Hotline on the Web!                                        Phone: 301-415-5930
                                                           Fax: 301-415-5091
                                                           Hotline: 800-233-3497
